Report No. D-2010-080                August 18, 2010




        Air Force Electronic Systems Center's Use of
              Undefinitized Contractual Actions
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
DFARS                         Defense Federal Acquisition Regulation Supplement
DPAP                          Office of Defense Procurement and Acquisition Policy
ESC                           Electronic Systems Center
FAR                           Federal Acquisition Regulation
FPDS-NG                       Federal Procurement Data System-Next Generation
GAO                           Government Accountability Office
IG                            Inspector General
PNM                           Price Negotiation Memorandum
UCA                           Undefinitized Contractual Action
U.S.C.                        United States Code
                                INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE
                                    400 ARMY NAVY DRIVE
                             AR LI NGTON , VIRGIN IA 22202-4704



                                                                          August 18,2010

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
               UNDER SECRETARY OF DEFENSE (COMPTROLLER)I
                 CHIEF FINANCIAL OFFICER
               ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)

SUBJECT: Air Force Electronic Systems Center's Use ofUndefinitized Contractual
            Actions (Report No. D-201 0-080)

We are providing this report for information and use. We considered management
comments when preparing the final report. This report is part of a congressionally
mandated periodic review of DOD use of undefinitized contractual actions.

DOD Directive 7650.3 requires that recommendations be resolved promptly. The
comments from the Director of Contracting, Headquarters Air Force Materiel Command;
the Commander, Air Force Electronic Systems Center; and the Director of Contracting,
Air Force Electronic Systems Center, were responsive. Therefore, we do not require any
additional comments.

We appreciate the courtesies extended to the staff. Please direct questions to me at (703)
604-9201 (DSN 664-9201).




                                             Richard B. Jolliffe
                                             Assistant Inspector General
                                             Acquisition and Contract Management
Report No. D-2010-080 (Project No. D2009-D000CG-0248.000)                    August 18, 2010


                Results in Brief: Air Force Electronic
                Systems Center’s Use of Undefinitized
                Contractual Actions
What We Did                                                  •    they did not provide a signed UCA
                                                                  approval document;
Public Law 99-591, section 908(b), requires the
DOD Inspector General to periodically audit                   • they did not follow statutory and DOD
Undefinitized Contractual Actions (UCAs) and                      regulations for preparing requests to issue
submit a report to Congress. This is the first in a               UCAs;
series of reports discussing DOD compliance                   • Government changed requirements after
with section 2326, title 10, United States Code.                  the UCAs were issued;
                                                              • the contractor submitted inadequate
We reviewed 41 UCAs with a total not-to-exceed                    proposals;
value of about $2.8 billion awarded by the Air                • they did not adequately document the
Force Electronic Systems Center (ESC) from                        determination of profit; and
FY 2004 through August 14, 2009, to determine                 • they issued UCAs unnecessarily because
whether ESC personnel complied with the                           of poor acquisition planning.
restrictions of the United States Code and                As a result, the Air Force assumed increased risk
appropriately justified and definitized UCAs at           in the award and negotiation process and may
reasonable prices.                                        have paid excess profit.
What We Found                                             What We Recommend
ESC personnel did not consistently comply with            Air Force officials should develop procedures to
statutory requirements for 34 of the 41 UCAs.             ensure that UCA requests include the impact on
ESC personnel did not:                                    agency requirements if contracting personnel do
    • adequately document the authorization to            not issue a UCA, require better coordination with
        issue 1 UCA;                                      customers to identify changes in Government
    • properly prepare requests for author-               requirements, and require contracting personnel
        ization to issue 16 UCAs;                         to adequately document the profit determination
    • definitize 12 UCAs within the 180-day               for UCAs. Air Force officials should develop
        time frame;                                       procedures to avoid issuing UCAs to extend
    • support whether the contactor’s reduced             consecutive periods of performance on the same
        risk during the undefinitized period was          contract and to avoid issuing UCAs for known or
        reflected in negotiated profit for                recurring requirements.
        25 UCAs; or
    • obligate funds within allowable limits for          Management Comments and
        2 UCAs.                                           Our Response
In addition, ESC contracting personnel                    The Director of Contracting, Headquarters Air
inappropriately issued UCAs for late customer-            Force Materiel Command; and the Commander,
defined requirements and additional UCAs for              and the Director of Contracting, Air Force
known or recurring acquisition requirements.              Electronic Systems Center, agreed with our
                                                          recommendations and provided responsive
ESC personnel did not consistently comply with            comments on the recommendations. No further
UCA restrictions because:                                 comments are required. Please see the
                                                          recommendation table on the back of this page.

                                                      i
Report No. D-2010-080 (Project No. D2009-D000CG-0248.000)          August 18, 2010

Recommendations Table

            Management                Recommendations       No Additional Comments
                                     Requiring Comment              Required
Director of Contracting,                                      1.a, 1.b
Headquarters, Air Force Materiel
Command
Commander, Air Force Electronic                               2.a, 2.b
Systems Center
Director of Contracting, Air Force                            3.a–e
Electronic Systems Center




                                          ii
Table of Contents

Introduction                                                         1

      Objectives                                                     1
      Background                                                     1
      Review of Internal Controls                                    4

Finding. ESC Management of Undefinitized Contractual Actions         5

      Recommendations, Management Comments, and Our Response         22


Appendices

      A. Scope and Methodology                                       26
             Prior Coverage                                          29
      B. August 2008 Office of Defense Procurement and Acquisition
         Policy Memorandum                                           30
      C. Undefinitized Contractual Actions Reviewed                  32
      D. Deficiencies Identified                                     36
      E. Definitization Elapsed Days for ESC UCAs                    39


Management Comments

      Department of the Air Force                                    42
Introduction
Objectives
We determined U.S. Air Force Electronic Systems Center’s (ESC) compliance with
restrictions on Undefinitized Contractual Actions (UCAs) imposed by section 2326, title
10, United States Code (10 U.S.C. § 2326 [2009]), “Undefinitized contractual actions:
restrictions.” We also determined whether ESC UCAs were appropriately justified and
definitized at reasonable prices. This is the first in a series of reports discussing DOD
compliance with 10 U.S.C. § 2326 (2009). See Appendix A for the scope and
methodology and prior coverage related to the objectives.

Legislation and Congressional Report Requirement
The DOD Inspector General (IG) is required by Public Law 99-591, “A Joint Resolution
Making Continuing Appropriations for Fiscal Year 1987, and for Other Purposes,”
section 908(b), to periodically conduct an audit of UCAs. DOD IG Report No. D-2004-
112, “Undefinitized Contractual Actions,” August 30, 2004, was our last audit of UCAs.
Section 908(b) of Public Law 99-591 states:
               Oversight by Inspector General.—The Inspector General of the
               Department of Defense shall—

               (1) periodically conduct an audit of contractual actions under the
               jurisdiction of the Secretary of Defense (with respect to the Defense
               Logistics Agency) and the Secretaries of the military departments; and

               (2) after each audit, submit to Congress a report on the management of
               undefinitized contractual actions by each Secretary, including the
               amount of contractual actions under the jurisdiction of each Secretary
               that is represented by undefinitized contractual actions.

Background
UCAs are agreements that allow a contractor to begin work and incur costs before the
Government and the contractor have reached a final agreement on contract terms,
specifications, or price. Contracting officers should use UCAs only when the negotiation
of a definitive contractual action is not possible in sufficient time to meet the
Government’s requirement. The Government’s requirement must also demand that the
contractor be given a binding commitment so that contract performance can begin
immediately.

UCA Restrictions
        Section 2326, title 10, United States Code requires the request to the head of an
agency for approval to issue a UCA contain the anticipated impact on agency
requirements if a UCA is not used and establishes limitations on the obligation of funds,
the definitization of terms, and allowable profit for UCAs. The Government limits the
use of UCAs because these contracts place the Government at a distinct disadvantage in
negotiating final prices.

                                                 1
UCAs for foreign military sales, purchases that do not exceed the simplified acquisition
threshold, special access programs, and congressionally mandated long-lead procurement
contracts are not subject to compliance with 10 U.S.C. § 2326. The Defense Federal
Acquisition Regulation Supplement (DFARS) 217.7402, “Exceptions,” requires that
contracting officers apply DFARS 217.74, “Undefinitized Contract Actions,” on UCAs
for foreign military sales, purchases that do not exceed the simplified acquisition
threshold, special access programs, and congressionally mandated long-lead procurement
contracts to the maximum extent practicable. Both 10 U.S.C. § 2326 and the DFARS
provide additional restrictions for the approval, definitization, obligation of funds, and
determination of allowable contractor profit.

Specifically, we reviewed the following four areas to determine whether UCAs issued by
ESC contracting personnel were in compliance:

   •   Authorization to Use a UCA: We evaluated whether contracting personnel issued
       UCAs only after obtaining proper authorization. Additionally, we reviewed the
       requests to issue a UCA to verify that the requests adequately addressed potential
       adverse impacts on agency requirements if a UCA was not issued.

   •   Contract Definitization: We evaluated whether ESC personnel definitized UCAs
       within 180-day time limits.

   •   Allowable Profit: We evaluated whether ESC contracting personnel’s
       determination of contractor profit reflected the work performed during the
       undefinitized period.

   •   Compliance With Obligation Limitations: We evaluated whether ESC
       contracting personnel obligated funding within allowable amounts.

In addition, we also reviewed UCAs to determine whether ESC personnel appropriately
justified the UCAs and whether the UCAs were definitized at fair and reasonable prices.

Enhanced Reporting Requirements
       On August 29, 2008, the Office of Defense Procurement and Acquisition Policy
(DPAP) issued a memorandum that required semiannual reporting of DOD Service UCA
usage to DPAP for actions with an estimated value of more than $5 million. See
Appendix B for a copy of the memorandum. DPAP introduced the enhanced reporting
requirement in response to the Government Accountability Office (GAO) Report No.
GAO-07-559, “Defense Contracting: Use of Undefinitized Contract Actions Understated
and Definitization Time Frames Often Not Met,” June 19, 2007, and Public Law 110-
181, “The National Defense Authorization Act for Fiscal Year 2008,” section 809,
“Implementation and Enforcement of Requirements Applicable to Undefinitized
Contractual Actions.”



                                            2
DFARS Case Rulings
        The 2007 GAO audit report resulted in DFARS case 2007-D011, which clarified
that, per 10 U.S.C. § 2326, the direction at DFARS 217.74 provides the criteria (vice
those in Federal Acquisition Regulation [FAR] 16.603-2, “Application”) for planning the
definitization schedule for a letter contract. During July 2009, DFARS Case 2008-D034 1
expanded the definition of “contract action” in DFARS 217.74 to include change orders
and other un-priced modifications. Previously, change orders and other un-priced
modifications followed guidance to the maximum extent practicable.

United States Air Force Electronic Systems Center
The ESC mission is to “develop, acquire, modernize, and integrate net-centric command
and control, intelligence, surveillance and reconnaissance capabilities, as well as combat
support information systems; provide warfighting commanders with battlefield situational
awareness and accurate, relevant, decision-quality information on a global information
grid.” ESC does not design or manufacture equipment. In its systems acquisition
mission, ESC serves as the manager. It determines the operational user’s needs, defines
systems to best meet those needs, asks for proposals from industry, selects contractors,
and monitors their progress. ESC manages more than 150 programs with an annual
budget of approximately $3 billion.

Electronic Systems Center UCA Usage
(FY 2004─August 14, 2009)
        We selected a nonstatistical judgment sample of 16 contracts that included
41 2 UCAs issued by ESC contracting personnel during FY 2004 through August 14,
2009, with a total dollar value of about $2.8 billion. We initially identified letter
contracts through queries of the Federal Procurement Data System-Next Generation
(FPDS-NG). We then requested and ESC contracting personnel provided a list of UCAs
issued from FY 2004 through August 14, 2009, from which we used our judgment to
select additional letter and indefinite-delivery, indefinite-quantity contracts. 3 See
Appendix C for a list of UCAs reviewed. Table 1 lists the number of contracts, the
number of UCAs, and the total not-to-exceed dollar value of the UCAs that we reviewed.




1
  DFARS Case D2008-D034 was open as of July 9, 2010.
2
  A nonstatistical judgment sample does not generalize to universe; therefore, audit results should not be
projected across all ESC UCAs.
3
  Our nonstatistical judgment sample did not include Foreign Military Sales contracts or change orders.

                                                      3
                Table 1. Nonstatistical Judgment Sample of ESC UCAs
                              FY 2004─August 14, 2009

          UCA Source                  Number of       Number of         Not-to-Exceed
                                      Contracts         UCAs             Dollar Value
Letter Contracts                         11              14             $2,203,988,644
Indefinite-Delivery, Indefinite-          5              27               554,428,533
Quantity Contracts
Totals                                     16             41            $2,758,417,177

Review of Internal Controls
DOD Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
January 4, 2006, requires DOD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses in ESC’s management of UCAs. ESC personnel did not consistently manage
UCAs. Specifically, internal control weaknesses allowed ESC contracting personnel to
issue UCAs based on inadequate requests and to not definitize UCAs within allowable
time frames. Internal control weaknesses also allowed ESC contracting personnel to
inadequately document how costs incurred during the undefinitized period impacted the
contractor’s profit. In addition, ESC contracting personnel issued UCAs for late
customer-defined requirements and for known or recurring acquisition requirements. As
a result, delays in definitizing contracts may have weakened ESC’s position in price
negotiations and increased the cost to the Government. Additionally, ESC contracting
personnel did not adequately document allowable profit that may have resulted in excess
profit for the contractors. Implementing Recommendations 1.a, 1.b, 2.a, 2.b, 3.a, 3.c, 3.d,
and 3.e in the Finding will improve ESC management of UCAs. We will provide a copy
of the report to the senior officials responsible for internal controls at Air Force Materiel
Command and ESC.




                                              4
Finding. ESC Management of Undefinitized
Contractual Actions
ESC personnel did not consistently comply with statutory requirements for managing
UCAs for 34 of the 41 UCAs we reviewed. For the 34 UCAs, valued at about
$2.6 billion, ESC personnel did not:
    • adequately document the authorization to issue 1 UCA,
    • prepare adequate requests for authorization to issue 16 UCAs,
    • definitize 12 UCAs within the 180-day time frame,
    • support whether the contactor’s reduced risk during the undefinitized period was
        reflected in negotiated profit on 25 UCAs, and
    • obligate funds within allowable limits on 2 UCAs.

In addition, ESC contracting personnel placed the Government at unnecessary risk when
they issued 4 UCAs on 1 contract for requirements that the customer had not identified in
a timely manner and 15 UCAs on 4 contracts for known or recurring acquisition
requirements. However, ESC contracting personnel adequately documented their
determination of price reasonableness for all 40 4 definitized UCAs that we reviewed.

ESC contracting personnel were unable to properly document the authorization to issue
1 UCA because they were unable to locate the signed authorization document. ESC
personnel issued 16 UCAs with inadequate authorization requests because they did not
follow statutory and DFARS regulations to include a description of the anticipated effect
on Air Force requirements if the UCA was delayed in the authorization request. ESC
contracting personnel were not always able to definitize UCAs within allowable time
frames because the Government changed requirements after ESC contracting personnel
issued the UCA and because contractors submitted inadequate proposals. ESC
contracting personnel issued UCAs that did not adequately support whether the
contractor’s reduced risk during the undefinitized period was reflected in negotiated
profit because they did not include sufficient support that would allow an independent
party to determine the basis for their profit determination. Further, ESC contracting
personnel issued UCAs for requirements that the customer had not identified in a timely
manner and issued additional UCAs for known or recurring acquisition requirements
because of poor acquisition planning.

As a result, the ESC position in the price negotiation and contract award may have been
weakened and delays in definitizing contracts may have increased the cost risk to the
Government. Additionally, ESC contracting personnel’s not adequately documenting
allowable profit may have resulted in excess profit for the contractors.




4
    One of the 41 UCAs was undefinitized as of April 23, 2010.

                                                     5
UCA Deficiencies
Our review of 41 UCAs issued by ESC contracting personnel identified a total of
56 deficiencies. UCA deficiencies consisted of five different types: unsigned
authorization to issue a UCA, inadequate authorization requests, untimely definitization,
insufficient documentation supporting the negotiated allowable profit rate, and obligating
funds in excess of allowable amounts. See Appendix D for further details of the
deficiencies. Table 2 identifies the reasons why we considered the UCAs deficient.

                   Table 2. Reasons Why UCAs Issued Were Deficient

                     Deficiency Reason                                        Number of Instances
Unsigned authorization                                                                1
Inadequate authorization request                                                     16
Untimely contract definitization                                                     12
Insufficient documentation of negotiated profit rate                                 25
Obligation in excess of allowable amounts                                             2
Total*                                                                               56
*A UCA may have more than one deficiency.

ESC Compliance With Authorization Requirements
ESC contracting personnel obtained proper authorization before issuing UCAs for 40 of
the 41 UCAs reviewed but were unable to provide a signed authorization for 1 UCA. In
addition, for 16 UCAs, ESC personnel prepared requests to issue a UCA that did not
comply with statutory and DOD regulations to include adequate explanation of the
impact on Air Force requirements if they did not issue a UCA. Specifically, ESC
personnel were unable to provide a signed approval document for 1 UCA and prepared
requests to issue a UCA that did not discuss the adverse impact and cite specific impacts
on agency requirements for 16 UCAs. Both 10 U.S.C. § 2326 and the DFARS provide
guidance on issuing UCAs. Section 2326(a), title 10, United States Code, states:

                The head of an agency may not enter into an undefinitized contractual
                action unless the request to the head of the agency for authorization of
                the contractual action includes a description of the anticipated effect on
                requirements of the military department concerned if a delay is incurred
                for purposes of determining contractual terms, specifications, and price
                before performance is begun under the contractual action.

DFARS 217.7404-1, “Authorization,” requires that the contracting officer obtain
approval from the head of the contracting activity before entering into a UCA and also
requires that the request for UCA approval must include a full explanation of the need to
begin contract performance before contract definitization. The head of the contracting
activity delegates the approval to issue a UCA depending on the dollar value of the



                                                    6
action. Air Force Materiel Command issued guidance in 2007 that provided a uniform
presentation for requests submitted to the head of the contracting activity for approval to
use a UCA.

Obtaining Approval to Issue a UCA
        ESC contracting personnel obtained proper authorization before issuing UCAs for
40 of the 41 UCAs that we reviewed. However, ESC contracting personnel were unable
to provide a signed approval document to issue a UCA for contract FA8721-09-C-0001.
ESC contracting personnel issued the UCA for system engineering and integration
support on October 1, 2008, as a 2-month bridge contract to a Federally Funded Research
and Development Center. ESC personnel provided an unsigned request to issue a UCA
and stated that they had obtained approval, but were unable to locate the signed
document. As a result we were unable to determine whether or not the UCA was
approved at the proper level of authority.

Inadequate Description of Impact on Air Force Requirements
        ESC contracting personnel issued 4 UCAs on 2 contracts and 12 UCAs on
1 contract that did not adequately describe, as required by 10 U.S.C. § 2326 and the
DFARS, the adverse impact on Air Force requirements within the authorization request
to issue a UCA. ESC personnel did not adequately describe in the request to issue a UCA
the adverse impact on agency requirements when they issued UCAs on modifications
PZ0008 and P00011 to contract FA8709-04-C-0011 and modifications PZ0008 and
P00013 to contract FA8709-04-C-0010. ESC contracting personnel cited the reason for
issuing the UCAs was for replanning and risk reduction activities. Contracting personnel
discussed the adverse impacts on agency requirements within other contract
documentation but should have disclosed the adverse impact on agency requirements
within the authorization request. ESC contracting personnel issued the four UCAs before
the Air Force Materiel Command issued guidance for uniform presentation in 2007.

ESC personnel prepared a single authorization request to issue 12 UCAs under contract
FA8730-08-D-0001 for the procurement of the Digital Airport Surveillance Radar
systems that did not specifically describe the adverse impact on agency requirements.
ESC personnel listed the adverse impact to the contractor and increased system prices but
did not specify the impact the increased prices and assembly line stoppage would have on
Government requirements if a delay in beginning performance occurred. As a result, the
UCA request was inadequate as sole support for determining whether or not ESC
personnel should issue 12 UCAs with a combined not-to-exceed value of about
$30 million.

ESC Compliance With Definitization Requirements
ESC contracting personnel did not definitize 12 UCAs within the 180-day time frame
specified by 10 U.S.C § 2326. ESC contracting personnel were unable to definitize
seven UCAs within the allowable time frame because Government personnel changed
requirements after ESC contracting personnel issued the UCAs. ESC



                                             7
contracting personnel were also late to definitize three UCAs because the contractor
submitted inadequate proposals. In addition, ESC contracting personnel did not
definitize two UCAs because of changes in assigned contracting personnel.

Section 2326(b), title 10, United States Code, states:

           A contracting officer of the Department of Defense may not enter into an
           undefinitized contractual action unless the contractual action provides for
           agreement upon contractual terms, specifications, and price by the earlier
           of—

               (A) the end of the 180-day period beginning on the date on which the
               contractor submits a qualifying proposal to definitize the contractual
               terms, specifications, and price; or

               (B) the date on which the amount of funds obligated under the
               contractual action is equal to more than 50 percent of the negotiated
               overall ceiling price for the contractual action.

Section 2326(g)(2) defines a “qualifying proposal” as:

               . . . a proposal that contains sufficient information to enable the
               Department of Defense to conduct complete and meaningful audits of
               the information contained in the proposal and of any other information
               that the Department is entitled to review in connection with the
               contract, as determined by the contracting officer.

Of the 41 UCAs reviewed, ESC personnel exceeded the time limits for 12 UCAs, and
1 of the 12 UCAs was undefinitized as of April 23, 2010. See Appendix E for elapsed
days until UCA definitization. On average, ESC contracting personnel took
approximately 349 days to definitize the 12 late actions from receipt of a qualifying
proposal and 442 days to definitize the 12 late actions from the date of award. For
one UCA that ESC personnel had not definitized as of April 23, 2010, ESC contracting
personnel received a qualifying proposal 178 days after award and the UCA remained
undefinitized more than 532 days after receipt of a qualifying proposal.

During the periods that UCAs remain undefinitized, contract cost risk transfers from the
contractor to the Government. ESC personnel should fund UCAs according to
anticipated contractor expenditures so that both users and contractors have incentive to
coordinate early and often about proposals, contractual needs, and funding. Table 3
shows the reasons why contracting personnel did not definitize the 12 UCAs within the
required time frame and the average number of days it took to definitize the UCAs.




                                                 8
                          Table 3. Average Delays in Definitization

    Reason Definitization       Number           Average             Average Days         Average Days
         was Late               of UCAs1        Days to a           From Proposal        From Issuance
                                                Qualifying         to Definitization2   to Definitization2
                                                Proposal2
Change in Government                 7            1521                   3211                 4741
requirements
Inadequate contractor                3              118                   345                  462
proposals
Re-assignment of the                 2              N/A3                 N/A3                  198
Contracting Officer
1
 As of April 23, 2010.
2
 Values have been rounded
3
 Qualifying proposals received before UCA issuance in two cases.

Change in Government Requirements
        ESC contracting personnel were unable to definitize seven UCAs within the 180-
day requirement because personnel from various program offices and the Secretary of the
Air Force changed requirements after ESC contracting personnel issued the UCA. After
issuing a UCA, contracting personnel have little control over changing Government
requirements. Each significant change in requirements requires the contractor to prepare
or revise a proposal that contracting personnel must then review. During the
undefinitized period the Government assumes greater contract cost risk. ESC contracting
and program office personnel should better coordinate with customers and management
to identify changes in Government requirements as soon as practicable and document
changes in the acquisition narrative. ESC contracting personnel were unable to definitize
the following 7 UCAs within the 180-day requirement because of changes in Government
requirements.

Contract FA8708-06-D-0001
       ESC contracting personnel were unable to definitize four UCAs for the Joint
Surveillance Target Attack Radar System (Joint STARS) in a timely manner for the
following 4 delivery orders.

Delivery Order 0008, Modification 02
                ESC contracting personnel were unable to definitize modification 02 to
delivery order 0008, with a not-to-exceed value of about $52 million, within required
time frames. ESC contracting personnel issued the modification on December 15, 2006,
for Affordable Moving Surface Target Engagement, Advanced Radar Modes, and System
Design and Development. However, the Chief of Staff of the Air Force terminated a
portion of the program on September 11, 2007, causing several technical requirements to




                                                   9
change that contributed to the delay in definitization. As a result of the new requirement,
ESC contracting personnel were unable to definitize the modification until September 28,
2007, 287 days after issuing the UCA.

Delivery Order 0008, Modification 17
               ESC contracting personnel were unable to definitize modification 17 to
delivery order 0008, with a not-to-exceed-value of about $7.4 million, within required
time frames. ESC contracting personnel issued the UCA on March 27, 2008, for the Joint
STARS System Improvement Program II, Enhanced Land/Maritime Mode Initial Retrofit
Program. However, in September 2008, the Air Force decided to reduce the retrofit
requirement to one aircraft only and requested a revised proposal from the contractor.
The change in requirement contributed to delaying the definitization. As a result, ESC
contracting personnel were unable to definitize the UCA until June 5, 2009, 435 days
after ESC contracting personnel issued the UCA, 214 days from issuance to qualifying
proposal, and 221 days from qualifying proposal to definitization.

Delivery Order 0010, Modification 11
               ESC contracting personnel were unable to definitize modification 11 to
delivery order 0010, with a not-to-exceed value of about $268 million, within required
time frames. ESC contracting personnel issued the modification on May 9, 2008, for
two Propulsion Pod System ship sets. The delay was due to the Assistant Secretary of the
Air Force for Acquisition requesting a hold on advancing the modification until the
completion of a study to determine airframe integrity. In addition, program personnel
were also trying to secure funding during the delay. The contract was definitized on
February 9, 2010, 641 days after ESC contracting personnel issued the UCA.

Delivery Order 0012, Modification 03
                ESC contracting personnel were unable to definitize modification 03 to
delivery order 0012, with a not-to-exceed value of about $30 million, within required
time frames. ESC contracting personnel issued the modification on May 13, 2008, for
engineering services to retrofit the Joint STARS fleet with the contractors JT8D-219
Propulsion Pod System. Program office personnel stated in a November 2009 e-mail that
they expected to expand the contract scope of work and that they planned to definitize the
contract during June 2010. As of April 23, 2010, 710 days had elapsed since ESC
contracting personnel issued the UCA.

Contract FA8726-06-C-0001
        ESC contracting personnel were unable to definitize contract FA8726-06-C-0001,
with a not-to-exceed value of about $8 million, within the 180-day requirement. ESC
contracting personnel awarded the contract on November 18, 2005, to procure, assemble,
test, and conduct operational user and system administration training for the Joint Range
Extension Transparent Multi-Platform Gateway Equipment Package. The letter contract
definitization schedule estimated definitization on June 1, 2006.

After ESC contracting personnel issued the UCA, program office personnel discussed
additional requirements with the contractor that the contracting officer did not learn of

                                             10
until shortly before definitization. The contracting officer needed to revise the contract to
prevent going above the not-to-exceed price. Additionally, engineers from the program
office determined that a piece of the system was obsolete and should be replaced with a
newer one. Both changes delayed definitization because it required the contractor to
submit additional proposals and make system manual revisions. As a result, ESC
contracting personnel were unable to definitize the contract until August 31, 2006,
286 days after issuing the UCA and 220 days after receiving a qualifying proposal.

Contract FA8704-04-C-0003
        ESC contracting personnel were unable to definitize contract FA8704-04-C-0003,
with a not-to-exceed value of about $7.2 million, within the 180-day requirement. ESC
contracting personnel issued the UCA to procure Wide-Band Klystron Power Amplifier
Kits. ESC contracting personnel secured an economy buy for 98 Wide-Band Klystron
Power Amplifier Kits by partnering with program office personnel at Tinker Air Force
Base on the purchase.

After ESC contracting personnel issued the UCA on June 30, 2004, Tinker Air Force
Base program office personnel withheld funding and Government-furnished property
because of performance issues with the subcontractor on a related contract for Narrow-
Band Klystron Power Amplifier Kits. As a result, ESC contracting personnel lost the
economy purchase and had to request a revised proposal from the contractor that caused a
delay in the receipt of the qualifying proposal. The contractor provided the revised
proposal 233 days after the UCA was issued. After receipt of the qualifying proposal,
ESC contracting personnel definitized the contract within 47 days.

Contract FA8704-04-C-0011, Modification PZ0008
        ESC contracting personnel did not definitize modification PZ0008 to contract
FA8709-04-C-0011, with a not-to-exceed value of about $8.1 million, within the required
time frames. ESC contracting personnel issued modification PZ0008 on November 16,
2005, to the contractor for a 3-month extension of risk reduction activities for the
Airborne and Maritime/Fixed Station Joint Tactical Radio System. ESC contracting
personnel and Navy customers decided to subsume the original UCA issued by PZ0008
with modification P00011 in order to continue risk reduction activities on the Pre-System
Design and Development effort for an additional 6 months. As a result, ESC contracting
personnel were unable to definitize modification PZ0008 until they issued
modification P00013 on September 27, 2006, 285 days after issuing modification
PZ0008.

Inadequate Proposals
        Contractors submitted inadequate proposals in response to the Air Force issuing a
UCA, which also contributed to delays in definitization. The contractor proposals were
inadequate because the contracting officer determined they did not contain sufficient
information to enable DOD personnel to conduct complete and meaningful audits of the
information contained in the proposal or the contracting officer determined the proposals
contained questionable costs. Contractors responding to an urgent Government request
often require input from multiple subcontractors. During the periods that UCAs remain

                                             11
undefinitized, contract cost risk transfers from the contractor to the Government. The
Government also pays the contractors for preparing the proposals. Air Force Materiel
Command contracting personnel should develop a metric for measuring contractor
responsiveness in preparing qualifying proposals. ESC contracting personnel were
unable to definitize the following UCAs within 180 days because the contractor did not
submit an adequate qualifying proposal as determined by the contracting officer in a
timely manner.

Contract FA8807-05-C-0004, Modification P00018
                The contractor submitted multiple incomplete and inadequate proposals
for modification P00018 to contract FA8807-05-C-0004 that caused delays in
definitization. Air Force Space and Missile Systems Center awarded the original contract
on March 18, 2005. ESC contracting personnel awarded the sole-source modification on
July 30, 2007, for full-rate production of the Combat Survivor Evader Locator handheld
radios and associated equipment and spares. The contractor submitted a proposal on
October 2, 2007, which the contracting officer rejected because it did not contain
adequate cost and pricing data. The contractor submitted a revised proposal on
January 18, 2008, which the contracting officer also rejected because of continued major
inadequacies. As a result, ESC contracting personnel were unable to definitize the
contract until 757 days after they issued the UCA, 212 days from contract award to
receipt of a qualifying proposal, and 545 days from receipt of a qualifying proposal to
definitization. The Defense Contract Audit Agency should perform a post-award review
of the contract because of the difficulties in obtaining a qualifying proposal and
definitizing this UCA.

Contract FA8726-09-C-0002
                Two subcontractors submitted proposals for contract FA8726-09-C-0002
that the Defense Contract Audit Agency determined were unacceptable to negotiate a fair
and reasonable price. The contract was a sole-source award for the Battlefield Airborne
Communications Node. ESC contracting personnel issued the UCA to support an
operational readiness demonstration of the system in overseas operations. As a result of
the problems with subcontractor proposals, ESC contracting personnel were unable to
definitize the UCA until 529 days after issuance.

Contract FA8721-09-C-0002
               The contractor submitted a proposal for contract FA8721-09-C-0002 that
the contracting officer determined included questionable costs. The contract was a sole-
source award for systems engineering and integration support. The ESC contracting
officer questioned specific costs in the contractor’s proposal, specifically costs called
Mission Oriented Investigation and Experimentation. As a result, this action took
303 days, 113 days from issuance to receipt of a qualifying proposal, and 190 days from
qualifying proposal to definitization, to definitize.




                                            12
ESC Compliance With Requirements to Reflect the
Undefinitized Period on Allowable Profit
ESC contracting personnel issued 25 UCAs that did not include sufficient support that
would allow an independent party to determine the basis for their profit determination.
ESC contracting personnel were required to use a weighted guidelines method to develop
a profit objective for 29 5 of the UCAs reviewed. ESC contracting personnel used a Web-
based tool to apply the weighted guidelines method for 24 of the UCAs. However, the
Web based tool’s output, DD Form 1547, “Record of Weighted Guidelines Application,”
was inadequate as sole support for profit determination because it did not clearly
document how the undefinitized period was reflected in the contractor’s profit or fee.
The DD Form 1547 was inadequate because it did not clearly document:
    •   the degree to which costs were incurred prior to definitization,
    •   the risk factors assigned to the incurred cost and projected cost when the weighted
        guidelines application was used, and
    •   the resulting impact on the contractor’s profit or fee.

In addition, ESC contracting personnel’s discussions of profit determination in the price
negotiation memoranda were insufficient to adequately document the degree to which
costs were incurred before definitization or did not contain adequate documentation that
supported how the undefinitized period was reflected in the contractor’s profit or fee for
25 UCAs. During the undefinitized period the Government bears increased risk, and the
contractor generally bears reduced risk. If the contractor’s reduced risk is not reflected in
the negotiated profit rate, then the Government could be paying too much profit to the
contractor.

Requirements to Reflect Reduced Cost Risk in the Contractor’s
Profit or Fee
       Both 10 U.S.C. 2326 and the DFARS provide guidance on profit determination,
and the FAR provides guidance on documentation of the price agreement. Section
2326(e), title 10, United States Code, states:
             The head of an agency shall ensure that the profit allowed on an
             undefinitized contractual action for which the final price is negotiated after
             a substantial portion of the performance required is completed reflects—

                 (1) the possible reduced cost risk of the contractor with respect to costs
                 incurred during performance of the contract before the final price is
                 negotiated; and

                 (2) the reduced cost risk of the contractor with respect to costs incurred
                 during performance of the remaining portion of the contract.


5
  Eleven of the UCAs were exempt from the requirement to reflect the contractor’s possible reduced cost
risk in the allowable profit because: the contract type was cost-plus-award-fee so use of the weighted
guidelines was not required (6), the contractor was a Federally Funded Research and Development Center
so no profit was paid (2), and no profit was paid on the UCA (3). In addition, one of the UCAs in the audit
sample was still undefinitized as of April 23, 2010.

                                                    13
DFARS 215.404-4, “Profit,” requires that contracting officers use a structured approach
for developing a pre-negotiation profit or fee objective on any negotiated contract action
when the contractor provides cost or pricing data, except for cost-plus-award-fee
contracts or contracts with Federally Funded Research and Development Centers.
DFARS 215.404-4 further states that the weighted guidelines method is the structured
approach that must be used, with certain limited exceptions. FAR 15.406-3,
“Documenting the Negotiation,” states that the price negotiation memorandum (PNM) is
the required formal document in which the contracting officer must document the basis
for the profit or fee prenegotiation objective and the profit or fee negotiated.

In June 2007, GAO issued Report No. GAO-07-559 which criticized DOD for
inadequately documenting the impact of costs incurred before definitization on profit and
fee rates. In response to the report, the Director, Defense Procurement, Acquisition
Policy, and Strategic Sourcing, issued a memorandum dated August 29, 2008, that
provided guidance to contracting officers regarding the requirements contained in
DFARS 215.404-71, which advocates the lowering of contract type risk based on the
amount of costs incurred before definitization. The memorandum required contracting
officers to document the risk assessment in the contract file (Appendix B). Only 1 of the
29 UCAs that we reviewed for profit determination was issued after DPAP issued the
August 2008 memorandum. When preparing the PNM for this UCA, ESC contracting
personnel discussed the cost, management, and technical risks involved with the effort
and stated that costs incurred before definitization were considered; however, they did
not address the effect that the incurred costs had on the contract type risk assigned or on
the contractor’s profit. As a result, we could not determine whether the UCA complied
with 10 U.S.C. 2326(e) and the DPAP memorandum requirements.

DD Form 1547 Provided Inadequate Support for Profit
Determination
        ESC contracting personnel used DD Form 1547 that the weighted guidelines
application generates as support for the profit determination. However, the form did not
provide sufficient detail as sole support that the undefinitized period was a consideration
in profit determination. The weighted guideline tool takes into consideration incurred
costs, the undefinitized period, and the remaining portion of the contract to develop a
profit objective. A composite contract type risk factor is developed after the contracting
officer enters the incurred and projected costs into the application and assigns values to
the contract risk factors. The weighted guidelines application then generates a total profit
objective for the contract based on the factors entered by the contracting officer and the
composite contract type risk factor generated by the application. The contracting officer
uses the profit objective as the Government’s basis for negotiations with the contractor.

However, DD Form 1547 did not display all of the factors entered by the contracting
officer. The form identified a profit factor but did not state the degree to which costs
were incurred prior to definitization, the risk factors assigned to the incurred cost and
projected cost, or the resulting impact on the contractor’s profit or fee. As a result, it is
not possible to determine how the contracting officer considered the contractor’s possible

                                             14
reduced cost risk unless the contracting officer documents the risk assessment in the
contract file. Contracting personnel should document the costs incurred before
definitization and their impact on profit determination in the PNM. Both the GAO and
DOD IG recommended in previous reports that DOD revise the DFARS to include
instructions on how to perform an assessment of any reduced cost risk on profit or fee
during the undefinitized period. 6 Following a meeting with Air Force Materiel
Command Headquarters personnel, they provided an e-mail stating that personnel from
the Secretary of the Air Force, Policy and Implementation, Deputy Assistant Secretary
(Contracting), Assistant Secretary (Acquisition), and DPAP have been discussing draft
changes incorporating the recommendations.
Inadequate Documentation of Profit Determination in the PNM
        ESC contracting personnel did not adequately document the degree to which costs
were incurred before definitization in the PNMs for 15 of the 29 UCAs reviewed. Of the
remaining 14 UCAs in which the PNMs included the cost incurred before definitization,
we still were unable to determine the effect that the incurred costs had on the contractor’s
profit for 10 UCAs because the profit determination was only supported by the
DD Form 1547, which did not provide sufficient detail for us to determine if profit was
impacted. Without adequate discussion of the contracting officer’s consideration of the
cost incurred, we were unable to determine to what extent the undefinitized period was
reflected in the contractor’s profit. See Table 4 for the number of instances in which
contracting personnel properly and improperly documented the costs incurred before
definitization in the PNM.

        Table 4. Documentation of Costs Incurred Before Definitization
                               Category                                            Number of
                                                                                   Instances
PNM did not include a discussion of the costs incurred before                         15
definitization
PNM did include a discussion of the costs incurred before                               14
definitization
Discussion of incurred cost not applicable*                                             11
UCA undefinitized as of April 23, 2010                                                   1
Total                                                                                   41
*Eleven of the UCAs were exempt from the requirement to reflect the contractor’s possible reduced cost
risk in the allowable profit because the contract type was cost-plus-award-fee so use of the weighted
guidelines was not required (6), the contractor was a Federally Funded Research and Development Center
so no profit was paid (2), and no profit was paid on the UCA (3).

ESC contracting personnel included a discussion of incurred costs before definitization in
the PNMs of 14 of the 29 UCAs reviewed; however, in 10 of the 14 PNMs, the


6
 GAO Report No. GAO-10-299, “DOD Has Enhanced Insight into Undefinitized Contract Action Use, but
Management at Local Commands Needs Improvements,” January 28, 2010, and DOD IG Report No.
D-2004-112, “Undefinitized Contractual Actions,” August 30, 2004.

                                                  15
discussion did not directly address the effect of the incurred costs before definitization on
contractor profit determination. Although the contracting officers may have documented
the costs incurred during the undefinitized period and used the weighted guidelines
application to develop a profit objective, they did not consistently document the resulting
effect on the contractor’s allowable profit. Air Force Materiel Command officials should
revise the Air Force Materiel Command Guide to Writing a Good Price Negotiation
Memorandum (PNM) or Price Competition Memorandum (PCM) to include requirements
to document incurred costs, their effect on the profit/fee analysis, and a discussion about
the inputs used for box 24 of the DD Form 1547.

Adequate and Inadequate Documentation of Profit Determination
in the PNM
        We reviewed the PNM for each of the 29 UCAs that were required to undergo a
weighted guidelines analysis to determine if the contracting officer’s consideration of the
undefinitized period and its effect on the contractor’s profit was adequately documented.
The following examples of adequate and inadequate documentation were found during
the review.

Contract FA8708-06-D-0001, Delivery Order 0011, Modification 02
                ESC contracting personnel prepared the PNM for contract FA8708-06-D-
0001, delivery order 0011, modification 02 that adequately documented the contracting
officer’s consideration of the undefinitized period and its effect on the contractor’s profit.
We considered the documentation to be adequate because it explained the amount of
costs incurred before definitization and their effect on the contract type risk used in the
weighted guidelines application, the reasons why the assigned risk factors deviated from
the normal values, and the profit objective generated based on the incurred cost and risk
factors. Specifically, the documentation explained that the contract type risk used in the
weighted guidelines application was reduced because nearly 75 percent of the actual cost
had been incurred prior to definitization, and the technical and management risk factors
assigned were above normal due to the short delivery schedule. Also, because the
Government’s profit objective was sustained in negotiations, it can clearly be seen how
the undefinitized period was reflected in the contractor’s profit.

Contract FA8708-06-D-0001, Delivery Order 0008, Modification 17
                 ESC contracting personnel prepared the PNM for contract FA8708-06-D-
0001, delivery order 0008, modification 17 that did not adequately document the
contracting officer’s consideration of the undefinitized period and its effect on the
contractor’s profit. We considered the documentation to be inadequate for several
reasons. First, contracting personnel included a statement that the Government used the
weighted guidelines, but they did not provide details about the amount of costs incurred
before definitization or provide any indication of costs incurred. Also, the PNM did not
state the risk factors that the contracting officer assigned or the reasons why the
negotiator chose the assigned values. Finally, the PNM did not state the effect of the
incurred cost and the use of the weighted guidelines application on the contractor’s profit.
Management at ESC should revise the Contract Specialist’s Handbook to include
instructions on documenting in the profit section of the PNM how the undefinitized

                                             16
period impacts the contractor’s profit or fee and include instructions for contracting
personnel to include and discuss inputs made to the contract type risk on the
DD Form 1547.

ESC Compliance With Obligation Limitations for UCAs
ESC contracting personnel exceeded the limitations for obligating funds on UCAs for
2 of the 41 UCAs reviewed. Contracting officers are limited by 10 U.S.C. § 2326 in the
amount of funds they may obligate on a UCA to 50 percent of the not-to-exceed-value
prior to receipt of a qualifying proposal and to 75 percent after receipt of a qualifying
proposal. Exceeding the allowable obligation thresholds puts the Government in a poor
position to negotiate a contract at definitization because contractors are less inclined to
submit a qualifying proposal when there is adequate funding available to continue the
work.

Section 2326(b)(2) & (3), title 10, United States Code, states:
               (2) Except as provided in paragraph (3), the contracting officer for an
               undefinitized contractual action may not obligate with respect to such
               contractual action an amount that is equal to more than 50 percent of
               the negotiated overall ceiling price until the contractual terms,
               specifications, and price are definitized for such contractual action.

               (3) If a contractor submits a qualifying proposal (as defined in
               subsection (g)) to definitize an undefinitized contractual action before
               an amount equal to more than 50 percent of the negotiated overall
               ceiling price is obligated on such action, the contracting officer for such
               action may not obligate with respect to such contractual action an
               amount that is equal to more than 75 percent of the negotiated overall
               ceiling price until the contractual terms, specifications, and price are
               definitized for such contractual action.

Section 2326(g)(2), title 10, United States Code, states:

               The term “qualifying proposal” means a proposal that contains
               sufficient information to enable the Department of Defense to conduct
               complete and meaningful audits of the information contained in the
               proposal and of any other information that the Department is entitled to
               review in connection with the contract, as determined by the
               contracting officer.

Overall, ESC contracting personnel properly obligated funds for UCAs with the
exception of two UCAs. In one instance, contracting personnel mistakenly obligated
54 percent (rather than 50 percent) of the not-to-exceed price before receiving a
qualifying proposal 6 months later. In the second instance, contracting personnel
obligated 99 percent of the not-to-exceed price rather than the allowed 75 percent in order
to continue to pay contractor personnel after definitization was delayed because of
difficulties obtaining a qualifying proposal. Contracting personnel obligated funds in
excess of the allowable 75 percent of the contract not-to-exceed amount to avoid



                                                  17
committing a possible Antideficiency Act violation. Neither of these instances was
indicative of a Command-wide problem with the obligation of funding for UCAs;
therefore, we are not making a recommendation on this issue.

Obligating Funds for UCAs
ESC contracting personnel took positive steps to comply with new requirements by not
obligating the maximum permissible funding before definitization. The August 2008
DPAP memorandum, “Management Oversight of Undefinitized Contractual Actions,”
instructed contracting officers to assess the contractor’s spend plan for the undefinitized
period and obligate funding in an amount consistent with the contractor’s requirements
for the undefinitized period. Further, contracting officers should avoid obligating the
maximum allowable funding amount at the time of UCA award to discourage extended
periods of performance before definitization. Funding UCAs according to anticipated
contractor expenditures can aid in timely contract definitization.

ESC contracting personnel took steps to comply with the DPAP memorandum
requirement to avoid obligating the maximum permissible funding at contract award.
Before the memorandum, ESC contracting personnel commonly funded UCAs to the
maximum amount allowed. ESC contracting personnel obligated funds for less than the
maximum amount allowable for 5 of the 36 UCAs from our nonstatistical judgment
sample that were issued before the DPAP memorandum and for 3 of the 5 UCAs that
were issued after the DPAP memorandum. The contracting officer can strengthen the
Government’s negotiation position by limiting funding to incremental amounts to help
obtain a timely definitization. Figure 1 shows obligation amounts before and after the
August 2008 DPAP memorandum.
                         Figure 1. Obligation Amounts Before and After the August 2008
                                              DPAP Memorandum

                    35                      31
                    30
   Number of UCAs




                    25
                    20
                    15
                    10
                                 5
                    5                                             3           2
                    0
                           Before DPAP memorandum          After DPAP memorandum

                                  Funded less than the maximum amount allowable
                                  Funded to the maximum amount allowable




                                                             18
Inadequate Justification for Issuing UCAs
ESC contracting personnel placed the Government at unnecessary risk when they issued
4 UCAs on 1 contract for late identified requirements and 15 UCAs on 4 contracts for
known or recurring acquisition requirements. DFARS 217.7403 limits the use of a UCA
to situations when negotiating a definitive contract is not possible and the Government’s
interest demands contract performance begin immediately. ESC personnel’s questionable
use of UCAs transferred additional cost risk from the contractor to the Government. ESC
contracting personnel should avoid issuing UCAs to extend consecutive periods of
performance on the same contract and avoid issuing UCAs for known or recurring
requirements because it is indicative of poor acquisition planning and a lack of
communication.

In a December 2006 memorandum, the Assistant Secretary of the Air Force for
Acquisition directed that contracting personnel should not use UCAs as a normal means
of conducting business. The memorandum further directed that UCA use should be
limited to circumstances where negotiation of a definitive contract is not possible to meet
Air Force requirements when performance must begin immediately. However, ESC
contracting personnel used UCAs to procure goods and services when contracting
personnel should have been able to avoid issuing a UCA. Figure 2 shows the underlying
factors behind ESC UCA usage.

                                                                  Figure 2. Underlying Reasons Why ESC Issued UCAs
  Total Not-to-Exceed Value of the UCAs (in Millions)




                                                        $2,500
                                                                                         $2,097
                                                        $2,000

                                                        $1,500

                                                        $1,000
                                                                                                                           $479
                                                         $500
                                                                      $107                                 $65                            $10
                                                           $0
                                                                       Late             Known or          Urgent          Maintain     Other (3)*
                                                                 Identification of      Recurring     Operational Need   Production
                                                                 Requirement (4)       Acquisition           (5)       Schedule/Cost
                                                                                     Requirement (15)                   Savings (14)




*Other reasons include using UCAs for the establishment of forward rate pricing agreements, lapse in
contract coverage, and contractor estimating system problems.



                                                                                                     19
Late Identification of Contractual Requirement
        ESC contracting personnel issued UCAs for contractual requirements that were
not identified in a timely manner for 4 of the 41 UCAs reviewed. ESC contracting
personnel issued four UCAs on contract FA8706-06-D-0003 with a value of
$106 million. ESC contracting personnel issued the first UCA in December 2006, for Air
and Space Operations Weapons System support, fielding, and system integration. ESC
issued three more UCAs, in September 2007, October 2008, and February 2009, to
extend the period of performance of the same or similar efforts when contracting
personnel could have reasonably estimated contract prices as they had recently completed
similar acquisitions. Contracting personnel attributed the use of a UCA to the late
identification of the contractual requirement and the unknown costs attributable to system
integration.

Contracts Issued for Known or Recurring Acquisition
Requirements
       ESC contracting personnel issued 12 UCAs on contract FA8730-08-D-0001 for
known acquisition requirements. ESC contracting personnel awarded contract F19628-
96-D-0038 on August 9, 1996, for Digital Airport Surveillance Radar. ESC contracting
personnel planned to issue a follow-on contract in 2006. However, the program
experienced delays because of developmental issues conflicting with aggressive
scheduling efforts. ESC contracting personnel issued 12 UCAs on May 22, 2008, to
procure the remaining systems. The cited reason was to avoid a production line shut
down. ESC contracting personnel definitized 11 of the UCAs on September 30, 2008.

ESC contracting personnel issued a UCA on modification P00018 of FA8807-05-C-0004
for known acquisition requirements. ESC contracting personnel awarded the
$108 million UCA for lot 3 of full rate production for the Combat Survivor Evader
Locator radios and accessories on July 30, 2007. As stated in the Request for
Authorization to Issue a UCA, ESC personnel issued a Request for Proposal for lot 3 in
November 2006. However, the contractor proposal and several subsequent revisions
were determined to be inadequate. ESC contracting personnel issued the UCA to secure
FY 2007 prices and to avoid a break in production between lots 2 and 3. The Combat
Survivor Evader Locator procurement was a mature program in lot 2 of full rate
production at the time of issuance and using a UCA transferred additional risk to the
Government on a program that had been in full rate production since 2005.

ESC contracting personnel issued two UCAs for $1.96 billion for recurring acquisition
requirements. The contract was awarded to a Federally Funded Research and
Development Center that has provided services to ESC for more than 50 years. ESC
contracting personnel issued contract FA8721-09-C-0001 on October 1, 2008, as a bridge
to cover the period between the end of contract FA8721-04-C-0001 and issuance of
contract FA8721-09-C-0002 on December 1, 2008. The FAR requires the sponsor of the
Federally Funded Research and Development Center, in this case the Office of the
Secretary of Defense, to conduct a comprehensive review every 5 years to determine
whether there is a continuing need for the Federally Funded Research and Development
Center. Because DOD had not completed the 2008 review within the normal timeline,

                                           20
ESC contracting personnel could not begin work on awarding a new contract. As a
result, ESC contracting personnel issued a UCA to avoid a break in performance.

Documentation of Fair and Reasonable Prices
ESC contracting personnel adequately documented their determination of price
reasonableness for all 40 definitized UCAs, with the exception of documenting the
determination of profit as discussed in the report. FAR 15.403-3, “Requiring information
other than cost or pricing data,” requires that the contracting officer obtain information
that is adequate for evaluating price reasonableness. Further, FAR 15.406-3,
“Documenting the negotiation,” states the contracting officer shall document fair and
reasonable price in the contract file. We obtained and reviewed 16 contract files for
40 UCAs and determined the files contained adequate documentation, such as PNMs,
business clearance memoranda, certificates of current cost or pricing data, and related
audit reports, to document contracting officers’ determination of price reasonableness.

ESC contracting personnel adequately documented their determination of a fair and
reasonable price. FAR 15.404-4, “Profit,” states that the contracting officer’s signature
on the PNM documents the contracting officer’s determination that the statutory price or
fee limitations have not been exceeded. Contracting officers signed the PNM for each of
the 40 UCAs. According to the PNMs, contracting officers evaluated contractor
proposals to determine that negotiated amounts were fair and reasonable. Table 5 shows
the types of support contracting officers relied on when determining price reasonableness.

     Table 5. Documentation to Support Determination of Price Reasonableness

        Contractor Proposal Evaluated Against                 Number of PNMs That
                                                               Identified Evaluation
Defense Contract Audit Agency, Defense Contract
Management Agency, and/or other audit agency audits                       34
Technical evaluations                                                     40
Forward pricing rate agreements or forward pricing rate
recommendations                                                           35

Further, the PNMs for 36 UCAs referenced compliance with FAR 15.403-4, “Requiring
Cost or Pricing Data,” which outlines requirements for obtaining current cost or pricing
data. The PNMs for 39 UCAs stated the contractor provided a certificate of current cost
or pricing data.

Proactive Measures Taken
Except for the discrepancies discussed, ESC contracting personnel complied with
restrictions on the inclusion of non-urgent spare parts and modification of the contractual
scope on all of the 41 UCAs reviewed. ESC officials implemented and maintained
oversight and tracking procedures that are helping ESC improve its management of
UCAs. Oversight procedures include manual tracking of UCAs with automated

                                            21
notifications to contracting personnel. ESC management also implemented a series of
contract reviews that help ensure the adequacy and completeness of contract
documentation. Although we identified deficiencies in this review, ESC had a
management framework in place to implement and subsequently improve the
management of UCAs.

Conclusion
ESC contracting personnel properly obtained the appropriate authorization to issue UCAs
with one exception, adhered to the limitations on the obligation of funds with two minor
exceptions, and adequately documented their determination of price reasonableness.
However, we identified 56 instances where ESC personnel did not fully comply with
UCA restrictions for the 41 UCAs that we reviewed. ESC personnel prepared requests to
issue a UCA that alone provided insufficient detail to support the UCA request, did not
definitize UCAs in a timely manner, and did not adequately document their consideration
of contractor’s reduced risk when determining contractor profit.

Recommendations, Management Comments, and Our
Response
1. We recommend that the Director of Contracting, Headquarters Air Force
Materiel Command:

       a. Develop a metric for measuring contractor responsiveness in preparing
qualifying proposals.

U.S. Air Force Materiel Command Comments
The Director of Contracting, Headquarters Air Force Materiel Command, agreed and
commented that Air Force Materiel Command has developed a metric for measuring
contractor responsiveness in preparing qualifying proposals. Air Force Materiel
Command personnel have collected detailed undefinitized contractual action information
on a monthly basis since January 2010. The data allow Air Force Materiel Command
personnel to measure contractor responsiveness in preparing qualifying proposals by
measuring the period of time between undefinitized contractual action issuance and
receipt of a qualifying proposal.

        b. Update the profit section of the Air Force Materiel Command Guide to
Writing a Good Price Negotiation Memorandum (PNM) or Price Competition
Memorandum (PCM) to include requirements to document incurred costs, their
effect on profit and fee analysis, and a discussion about the inputs used for box 24 of
the DD Form 1547.

U.S. Air Force Materiel Command Comments
The Director of Contracting, Headquarters Air Force Materiel Command, agreed and
stated that additional emphasis is appropriate. Air Force Materiel Command contracting
personnel will revise the Price Negotiation Memorandum/Price Competition
Memorandum Guide to highlight and emphasize the relationship between incurred costs

                                          22
and profit/fee and the need for adequate documentation. The Air Force Materiel
Command Guide to Writing a Good Price Negotiation Memorandum (PNM) or Price
Competition Memorandum (PCM) will be updated within 60 days to reflect this
emphasis.

Our Response
The Director of Contracting’s comments are responsive. No additional comments are
required.

2. We recommend that the Commander, Air Force Electronic Systems Center:

       a. Require that Air Force Electronic Systems Center program management
and contracting personnel better coordinate with customers to identify changes in
Government requirements as soon as practicable and document changes in the
acquisition narrative.

Air Force Electronic Systems Center Comments
The Commander, Headquarters Electronic Systems Center, agreed and stated that policy
will be issued by December 1, 2010, to instruct Electronic Systems Center personnel to
better coordinate with customers to identify and document changes in Government
requirements.

       b. Develop procedures so that program offices avoid requesting that
Electronic Systems Center contracting personnel issue undefinitized contractual
actions to extend consecutive periods of performance on the same contract and for
known or recurring requirements.

Air Force Electronic Systems Center Comments
The Commander, Headquarters Air Force Electronic Systems Center, agreed and stated
that policy will be issued by December 1, 2010, instructing program office personnel to
refrain from requesting that Electronic Systems Center contracting personnel issue
undefinitized contractual actions for the purpose of extending consecutive periods of
performance and for known or recurring requirements.

Our Response
The Commander’s comments are responsive. No additional comments are required.

3. We recommend that the Director of Contracting, Air Force Electronic Systems
Center:

       a. Develop procedures in the contract review process to help ensure that
each undefinitized contractual action request to the head of the contracting activity
or delegate includes the adverse impact on agency requirements if contracting
personnel do not issue an undefinitized contractual action.



                                           23
Air Force Electronic Systems Center Comments
The Director of Contracting, Air Force Electronic Systems Center, agreed and stated that
on December 15, 2009, the Electronic Systems Center Contracting Office issued
procedures that required the use of the Air Force Materiel Command’s Undefinitized
Contractual Action Request Template from Air Force Materiel Command Federal
Acquisition Regulation Supplement 5317.7404-1(e). The director noted that the template
requires information on the mission impact if the use of an undefinitized contractual
action is not approved.

       b. Request the Defense Contract Audit Agency perform a post-award review
of contract FA8807-05-C-0004 because of the difficulties in obtaining a qualifying
proposal and definitizing the undefinitized contractual action.

Air Force Electronic Systems Center Comments
The Director of Contracting, Air Force Electronic Systems Center, agreed and stated that
the contracting officer will be required to request that the Defense Contract Audit Agency
perform a post-award review of contract FA8807-05-C-0004 by October 1, 2010.

       c. Update the Air Force Electronic Systems Center Contract Specialist’s
Handbook with requirements for contracting personnel to include in the profit
section of the price negotiation memorandum: incurred cost, contract type risk used
for both the undefinitized period and remainder of the contract, and the impact that
the use of the undefinitized contractual action had on the contractor’s profit or fee.
In addition, include instructions for contracting personnel to include and discuss
inputs made to the contract type risk of DD Form 1547, “Record of Weighted
Guidelines Application.”

Air Force Electronic Systems Center Comments
The Director of Contracting, Air Force Electronic Systems Center, agreed and
commented that the Contract Specialist’s Handbook will be updated by October 1, 2010,
to require that contracting personnel include incurred cost, contract type risk used for
both the undefinitized period and remainder of the contract, and the impact that the use of
the undefinitized contractual action had on the contractor’s profit or fee in the profit
section of the price negotiation memorandum. In addition, the Contract Specialist’s
Handbook will be updated by October 1, 2010, to instruct contracting personnel to
include and discuss inputs made to the contract type risk of DD Form 1547, “Record of
Weighted Guidelines Application.”

       d. Require contracting personnel to avoid obligating funds to the maximum
amount allowable for all undefinitized contractual actions so that both users and
contractors have incentive to coordinate early and often about proposals,
contractual needs, and funding.




                                            24
Air Force Electronic Systems Center Comments
The Director of Contracting, Air Force Electronic Systems Center, agreed and
commented that on March 17, 2010, the Deputy Assistant Secretary (Contracting)
Assistant Secretary (Acquisition) issued policy requiring contracting officers to obligate
funding consistent with the contractor’s spend plan for the undefinitized period.

       e. Develop procedures to avoid issuing undefinitized contractual actions to
extend consecutive periods of performance on the same contract and for known or
recurring requirements.

Air Force Electronic Systems Center Comments
The Director of Contracting, Air Force Electronic Systems Center, agreed and stated that
procedures will be included in the policy to be issued by December 1, 2010, in response
to Recommendation 2.b to refrain from issuing undefinitized contractual actions to
extend consecutive periods of performance on the same contract and for known or
recurring requirements.

Our Response
The Director of Contracting’s comments are responsive. No additional comments are
required.




                                            25
Appendix A. Scope and Methodology
We conducted this performance audit from July 2009 through June 2010 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

GAO was conducting a review on the use of UCAs when our audit began. We limited
our site selection to contracting offices that were not included in the GAO engagement.

Universe and Sample Information
We used the FPDS-NG database to identify a universe of UCAs to review. We identified
action obligations coded as letter contracts that the Air Force issued during calendar years
2004 through 2008. We classified the action obligations by contract number and
contracting office code to identify the contracting offices that issued the 15 largest
aggregate UCA dollar values. We excluded two Air Force contracting organizations
from consideration because GAO had an ongoing engagement with similar objectives at
the sites. We identified ESC and Air Force Space and Missile Systems Center for
review. We then conducted another search in FPDS-NG to identify additional UCAs
issued by ESC contracting personnel from the beginning of FY 2004 to June 22, 2009.
The FPDS-NG universe consisted of 324 ESC actions as of June 22, 2009, valued at
about $2.2 billion. From the UCAs issued by ESC, we selected a nonstatistical judgment
sample of 12 letter contracts to review. In addition, ESC personnel provided a list of all
UCAs issued by ESC contracting personnel from FY 2004 through August 14, 2009, that
had a total not-to-exceed value of about $5.8 billion. However, the list of UCAs provided
by ESC contained UCAs issued outside the scope of our review and contained UCAs for
foreign military sales and efforts supporting contingencies. Based upon the FPDS-NG
data and the ESC data, we selected a nonstatistical judgment sample of 23 contracts for
review. During the audit we eliminated 7 contracts from the scope because 2 were not
UCAs, 3 were not physically located at ESC, and 2 were Foreign Military Sales
contracts. Because 10 U.S.C. § 2326 (2009) exempts Foreign Military Sales from
restrictions applicable to UCAs, we removed them from our nonstatistical judgment
sample.

Our audit universe was initially limited to the contracts identified in FPDS-NG as letter
contracts. Within FPDS-NG, we were unable to distinctively identify three types of
UCAs called “provisioned item orders,” “indefinite-delivery, indefinite-quantity,” and
“basic ordering agreements.” These types of UCAs were identified in a field the user or
input staff modifies and were subject to individual manipulations of the field that make
searching across the database unreliable. However, we later included delivery order type
contracts identified by ESC contracting personnel. Our final nonstatistical judgment
sample consisted of 41 UCAs: 14 UCAs on 11 letter contracts and 27 UCAs on


                                            26
5 indefinite-delivery, indefinite-quantity contracts. See Appendix C for a list of UCAs
that we reviewed.

Review of Documentation and Interviews
We downloaded and reviewed selected contracts and modifications from the Electronic
Document Access database and obtained and reviewed contract documentation from
ESC. We then combined all of the data to perform an analysis to determine compliance
with 10 U.S.C. § 2326. We also determined through documentation analyzed and
meetings attended whether the contracts underwent price reasonableness determinations
before their definitization.

We interviewed contracting, procurement, and automation personnel covering award and
definitization of letter contracts and related management control programs at the:
    • Office of Defense Procurement and Acquisition Policy;
    • Department of the Air Force, Policy and Implementation;
    • United States Air Force Materiel Command; and
    • Air Force Electronic Systems Center.

We reviewed documentation maintained by ESC contracting personnel to support letter
contracts and delivery order contracts awarded or definitized from FY 2004 through
August 14, 2009. We reviewed:
   • UCA request and approval documentation,
   • justification and approvals,
   • statements of work,
   • contract modifications,
   • price negotiation memoranda,
   • business clearance memoranda, and
   • Defense Contract Audit Agency audit reports.

We evaluated documentation maintained by ESC against applicable criteria including:

   •   Statutes and Public Laws: Public Law 99-591, “A Joint Resolution Making
       Continuing Appropriations for Fiscal Year 1987, and for Other Purposes”; Public
       Law 110-181, “National Defense Authorization Act for Fiscal Year 2008”;
       10 U.S.C. Section 2304, “Contracts: Competition Requirements”;
       10 U.S.C. Section 2326, “Undefinitized Contractual Actions: Restrictions”;

   •   Federal Acquisition Regulation Requirements: FAR Subpart 6.3, “Other than Full
       and Open Competition”; FAR Subpart 15.4, “Contract Pricing”; FAR Subpart
       16.6, “Time-and-Materials, Labor Hour, and Letter Contracts”; FAR Subpart
       52.2, “Text of Provisions and Clauses”;

   •   Defense Federal Acquisition Regulation Supplement: DFARS 215.404, “Proposal
       Analysis”; DFARS 216.6, “Time-and-Materials, Labor Hour, and Letter
       Contracts”; DFARS 217.74, “Undefinitized Contract Actions”; DFARS case

                                           27
       2008-D034, “Management of Unpriced Change Orders”; DFARS case 2007-
       D011, “Letter Contract Definitization Schedule”;

   •   Air Force Federal Acquisition Regulation Supplement: Air Force Federal
       Acquisition Regulation Supplement Subpart 5316.6, “Time-and-Materials, Labor
       Hour, and Letter Contracts”; Air Force Federal Acquisition Regulation
       Supplement Subpart 5317.74, “Undefinitized Contract Actions”; Air Force
       Federal Acquisition Regulation Supplement Subpart 5301.90, “Clearance”;

   •   Memoranda: Office of the Under Secretary of Defense for Acquisition,
       Technology, and Logistics memorandum, “Management Oversight of
       Undefinitized Contract Actions,” August 29, 2008; the Department of the Air
       Force Office of the Assistant Secretary Contract Policy Memo 08-C-11,
       “Mandatory Procedures for Undefinitized Contract Actions (UCAs),” October 14,
       2008; Department of the Air Force, Policy and Implementation, Deputy Assistant
       Secretary (Contracting), Assistant Secretary (Acquisition) Policy Memo 08-C-05,
       “Head of Contracting Activity (HCA) Designation and General Contracting
       Authority,” September 25, 2008; and

   •   Air Force Materiel Command and ESC Guidance: Air Force Materiel Command
       Contracting, A Guide to Writing a Good Price Negotiation Memorandum (PNM)
       or Price Competition Memorandum (PCM), May 2007; ESC Commander
       memorandum, “Delegation of Acquisition Authorities,” June 21, 2004; ESC
       Contracting memorandum, “Delegation on Head of Contracting (HCA) Authority
       at ESC,” October 1, 2008; and “Air Force Procurement Executive Office C2 &
       CS Delegations of Authorities,” matrix, September 27, 2007; ESC Contract
       Specialist Handbook (Phase II), March 2008.

Use of Computer-Processed Data
We relied on computer-processed data from FDPS-NG to determine the contracting
organizations to visit and to perform the audit nonstatistical judgment sample selection.
We also used Electronic Document Access to obtain contract documentation. The data
were not a basis for our conclusions or finding. To assess the accuracy of computer-
processed data, we verified the FPDS-NG and Electronic Document Access data against
official records at visited contracting activities. We determined that data obtained
through FPDS-NG and Electronic Document Access were sufficiently reliable to
accomplish our audit objectives.

Use of Technical Assistance
We met with personnel from the DOD IG Quantitative Methods and Analysis Division
and determined that we would use FPDS-NG data to select a nonstatistical judgment
sample of contracting activities and then we would use FPDS-NG data in combination
with contract data provided by the contracting activity to select a nonstatistical judgment
sample of UCAs to review. Our nonstatistical judgment sample was limited to specific


                                            28
contracts, and our results should not be projected across other ESC-issued contracts nor
projected across Air Force-issued contracts.

Prior Coverage
During the last 5 years, GAO has issued two reports discussing DOD use of UCAs. Six
years ago, the DOD IG issued a report discussing DOD use of UCAs. Unrestricted GAO
reports can be accessed over the Internet at http://www.gao.gov. Unrestricted DOD IG
reports can be accessed at http://www.dodig.mil/audit/reports.

GAO
GAO Report No. GAO-10-299, “Defense Contracting: DOD Has Enhanced Insight into
Undefinitized Contract Action Use, but Management at Local Commands Needs
Improvements,” January 28, 2010

GAO Report No. GAO-07-559, “Defense Contracting: Use of Undefinitized Contract
Actions Understated and Definitization Time Frames Often Not Met,” June 19, 2007

DOD IG
DOD IG Report No. D-2004-112, “Undefinitized Contractual Actions,” August 30, 2004




                                           29
Appendix B. August 2008 Office of Defense
Procurement and Acquisition Policy
Memorandum*




*Attachments to the memorandum have been removed from the report.




                                               30
31
Appendix C. Undefinitized Contractual Actions Reviewed
         Electronic Systems Center’s Use of Undefinitized Contractual Actions for FY 2004–August 14, 2009

 UCA          Contract       Delivery Order/   Description of Supplies or Services Procured              Contract2   Effective      NTE3
Number        Number          Modification                                                                Type         Date        Amount
                                Number1                                                                                           (millions)
  1       FA8704-04-C-0003                           Wide Band Klystron Power Amplifier Kits               FFP       6/30/2004       $7.2
  2       FA8720-04-C-0025                           Testing for Joint Weather Impacts Systems             CPFF       9/1/2004         1.5
  3       FA8721-09-C-0002                         System engineering and integration support for           CR       12/1/2008     1,900.0
                                                               Air Force Programs
  4       FA8726-06-C-0001                       Joint Range Extension Transparent Multi-Platform          FFP       11/18/2005        8.1
                                                   Gateway Equipment Package (JTEP) systems
  5       FA8726-09-C-0002                     Operational Readiness Demonstration for the Battlefield   CPFF/FFP/   10/24/2008      47.8
                                                      Airborne Communications Node (BACN)                CR/T&M
          FA8721-08-D-0001
  6                          DO-0001             Services and products for Counter Suicide Bomber        FFP/CPFF     7/9/2008         3.0
                                                                Capability Systems
  7                          DO-0002           Support for Counter Suicide Bomber Capability Systems     T&M/CR      8/14/2008         1.4
  8       FA8730-08-C-0002                      Long-lead items and services for AutoTrac II System        FFP        3/6/2008         5.2
          FA8807-05-C-0004
  9                          P00018             Combat Survivor/Evader Locator (CSEL) Radio Sets           FFP       7/30/2007      107.7
          FA8706-06-D-0003
  10                         DO-0003             Air and Space Operations Center Weapons System            CPAF      12/8/2006       33.0
                                                               Support and Fielding
  11                         DO-0003-02          Air and Space Operations Center Weapons System            CPAF       9/7/2007       16.1
                                                               Support and Fielding
  12                         DO-0010-03          Air and Space Operations Center Weapons System            CPAF      10/31/2008      23.1
                                                               Support and Fielding
  13                         DO-0017             Air and Space Operations Center Weapons System            CPAF      2/27/2009       29.2
                                                               Support and Fielding


                                                                 32
Appendix C. Undefinitized Contractual Actions Reviewed (cont’d)
         Electronic Systems Center’s Use of Undefinitized Contractual Actions for FY 2004–August 14, 2009

 UCA         Contract        Delivery Order/   Description of Supplies or Services Procured                 Contract   Effective      NTE
Number       Number           Modification                                                                   Type        Date        Amount
                                 Number                                                                                             (millions)
          FA8720-04-D-0001
  14                         DO-0001-02           Human Machine Interface improvements to Battle              FFP       5/5/2005        1.2
                                                 Control Systems-Mobile (BCS-M) Communications
                                                   Switch System Initial Production Units (IPUs)
          FA8708-06-D-0001
  15                         DO-0004-01            Enhanced Land/Maritime Modes (ELMM) Risk                   CPIF     12/30/2005      3.8
                                               Reduction Effort into the Joint Surveillance Target Attack
                                               Radar System (STARS) System Improvement Program II
  16                         DO-0008-02         ELMM/Affordable Moving Surface Target Engagement             CPAF      12/15/2006      52.1
                                               (AMSTE) System Design and Development (SDD) effort
                                                into the Joint STARS System Improvement Program II
  17                         DO-0008-16         ELMM/Advanced Radar Modes (ARM)/AMSTE SDD                     CPIF     3/28/2008       65.6
                                                  effort into the Joint STARS System Improvement
                                                                       Program II
  18                         DO-0008-17               ELMM and ARM Initial Retrofit Program                  FPI(F)    3/27/2008       7.5
  19                         DO-0010-11                  Two Propulsion Pod System ship sets                CPIF/FFP    5/9/2008      268.4
  20                         DO-0011-02          Software Upgrade effort into the basic Joint STARS           CPIF     4/23/2007       2.0
                                                     System Improvement Program II Contract
  21                         DO-0012-03                   Re-engine the Joint STARS System                    CPIF     5/13/2008       30.9
  22                         DO-0018-03         Retrofit aircraft with SIPRNet Entry Site (SES), partial      FFP      11/30/2007      22.4
                                                         initial spares, trainers, and 5 months of
                                                                 contractor logistic support
          FA8709-04-C-0010                      15-month effort to define system interface requirements
                                                for Pre-SDD Phase of the Airborne and Maritime/Fixed
                                                 Station Joint Tactical Radio System (JTRS) Program,
                                                                and initial development
  23                         PZ0005                      Change in requirements for the JTRS                 CPFF      5/11/2005        1.4


                                                                   33
Appendix C. Undefinitized Contractual Actions Reviewed (cont’d)
         Electronic Systems Center’s Use of Undefinitized Contractual Actions for FY 2004–August 14, 2009

 UCA          Contract       Delivery Order/   Description of Supplies or Services Procured              Contract2   Effective      NTE
Number        Number          Modification                                                                Type         Date        Amount
                                Number1                                                                                           (millions)
  24                         PZ0008                       3-month extension of the contract                CPFF      11/16/2005       8.2
  25                         P00013                       8-month extension of the contract                CPFF      3/31/2006       19.4
          FA8709-04-C-0011                         Preliminary Design Review for Pre-SDD effort
  26                         PZ0008                       3-month extension of the contract                CPFF      11/16/2005       8.1
  27                         P00011                       8-month extension of the contract                CPFF      3/14/2006       20.1
          FA8725-04-C-0007
  28                         P00041            Requirements analysis, implementation review, training,     CPAF      7/12/2007        9.4
                                                drawing, technical order development, and acceptance
                                                     testing for Dynamic Link Reconfiguration
          FA8730-08-D-0001                           Digital Airport Surveillance Radar System
  29                         DO-0001                 Digital Airport Surveillance Radar System             FFP       5/22/2008       4.3
  30                         DO-0002                 Digital Airport Surveillance Radar System            CR/LH      5/22/2008         .9
  31                         DO-0003                 Digital Airport Surveillance Radar System             FFP       5/22/2008       3.3
  32                         DO-0004                 Digital Airport Surveillance Radar System             FFP       5/22/2008       3.4
  33                         DO-0005                 Digital Airport Surveillance Radar System             FFP       5/22/2008       3.4
  34                         DO-0006                 Digital Airport Surveillance Radar System             FFP       5/22/2008       3.3
  35                         DO-0007                 Digital Airport Surveillance Radar System             FFP       5/22/2008       3.3
  36                         DO-0008                 Digital Airport Surveillance Radar System             FFP       5/22/2008       3.3
  37                         DO-0009                 Digital Airport Surveillance Radar System             FFP       5/22/2008       3.4
  38                         DO-0010                 Digital Airport Surveillance Radar System            CR/LH      5/22/2008         .3
  39                         DO-0011                 Digital Airport Surveillance Radar System             FFP       5/22/2008         .02
  40                         DO-0012                 Digital Airport Surveillance Radar System             FFP       5/22/2008         .2



                                                                 34
Appendix C. Undefinitized Contractual Actions Reviewed (cont’d)
         Electronic Systems Center’s Use of Undefinitized Contractual Actions for FY 2004–August 14, 2009

 UCA            Contract           Delivery Order/         Description of Supplies or Services Procured                Contract2        Effective        NTE
Number          Number              Modification                                                                        Type              Date          Amount
                                      Number1                                                                                                          (millions)
  41       FA8721-09-C-0001                                  Architecture development, technical strategy, program          CR          10/1/2008          60.0
                                                           strategy, program execution, and DOD enterprise systems
                                                                                 engineering
  1
    DO: delivery order.
  2
    FFP: firm-fixed-price; CPAF: cost-plus-award-fee; T&M: time-and-materials; CPFF: cost-plus-fixed-fee; CPIF: cost-plus-incentive-fee; CR: cost-reimbursement;
  FPI(F): fixed-price-incentive (firm); and LH: labor hour.
  3
    NTE: not-to-exceed amount.




                                                                               35
Appendix D. Deficiencies Identified
                            Detailed Results of Undefinitized Contractual Actions Reviewed

                                                   Deficiencies in ESC Use of Undefinitized Contractual Actions
 UCA         Contract        Delivery Order/   Effective     Inadequate   Definitization   Obligation   Inadequate Profit
Number       Number           Modification       Date        Request to     Untimely        Limits        Determination
                                 Number                     Issue a UCA                    Exceeded      Documentation
  1      FA8704-04-C-0003                      6/30/2004                        √                               √
  2      FA8720-04-C-0025                       9/1/2004                                                        √
  3      FA8721-09-C-0002                      12/1/2008                        √
  4      FA8726-06-C-0001                      11/18/2005                       √                              √
  5      FA8726-09-C-0002                      10/24/2008                       √                              √
         FA8721-08-D-0001
  6                          DO-0001            7/9/2008                                                       √
  7                          DO-0002           8/14/2008                                                       √
  8      FA8730-08-C-0002                       3/6/2008                        √
         FA8807-05-C-0004
  9                          P00018            7/30/2007                        √              √
         FA8706-06-D-0003
  10                         DO-0003           12/8/2006
  11                         DO-0003-02         9/7/2007
  12                         DO-0010-03        10/31/2008
  13                         DO-0017           2/27/2009                        √
         FA8720-04-D-0001
  14                         DO-0001-02         5/5/2005                                                       √


                                                            36
Appendix D. Deficiencies Identified (cont’d)
                            Detailed Results of Undefinitized Contractual Actions Reviewed

                                                   Deficiencies in ESC Use of Undefinitized Contractual Actions
 UCA         Contract        Delivery Order/   Effective     Inadequate   Definitization   Obligation   Inadequate Profit
Number       Number           Modification       Date        Request to     Untimely        Limits        Determination
                                 Number                     Issue a UCA                    Exceeded      Documentation
         FA8708-06-D-0001
  15                         DO-0004-01        12/30/2005
  16                         DO-0008-02        12/15/2006                       √
  17                         DO-0008-16        3/28/2008
  18                         DO-0008-17        3/27/2008                        √                              √
  19                         DO-0010-11         5/9/2008                        √                              √
  20                         DO-0011-02        4/23/2007
  21                         DO-0012-03        5/13/2008                       √+
  22                         DO-0018-03        11/30/2007                                                      √
         FA8709-04-C-0010
  23                         PZ0005            5/11/2005                                                       √
  24                         PZ0008            11/16/2005        √                                             √
  25                         P00013            3/31/2006         √                                             √
         FA8709-04-C-0011
  26                         PZ0008            11/16/2005        √              √                              √
  27                         P00011            3/14/2006         √                                             √
         FA8725-04-C-0007
  28                         P00041            7/12/2007
         FA8730-08-D-0001
  29                         DO-0001           5/22/2008         √                                             √

                                                            37
Appendix D. Deficiencies Identified (cont’d)
                                        Detailed Results of Undefinitized Contractual Actions Reviewed

                                                               Deficiencies in ESC Use of Undefinitized Contractual Actions
 UCA               Contract              Delivery Order/   Effective    Inadequate   Definitization   Obligation   Inadequate Profit
Number             Number                 Modification       Date       Request to     Untimely        Limits        Determination
                                             Number                    Issue a UCA                    Exceeded      Documentation
    30                                   DO-0002           5/22/2008         √
    31                                   DO-0003           5/22/2008         √                                            √
    32                                   DO-0004           5/22/2008         √                                            √
    33                                   DO-0005           5/22/2008         √                                            √
    34                                   DO-0006           5/22/2008         √                                            √
    35                                   DO-0007           5/22/2008         √                                            √
    36                                   DO-0008           5/22/2008         √                                            √
    37                                   DO-0009           5/22/2008         √                                            √
    38                                   DO-0010           5/22/2008         √
    39                                   DO-0011           5/22/2008         √                                            √
    40                                   DO-0012           5/22/2008         √                                            √
    41        FA8721-09-C-0001                             10/1/2008       √                             √
         Total                                                              17            12              2               25
√ Discrepancy noted.
+ Undefinitized as of April 23, 2010.
Unsigned UCA authorization.




                                                                       38
Appendix E. Definitization Elapsed Days for ESC UCAs
                    Electronic Systems Center’s Definitization Details for FY 2004–August 14, 2009

    Contract         Effective    Qualifying   Definitization          Days From Award to             Days From Receipt    Days From
    Number             Date        Proposal        Date                Receipt of Qualifying            of Qualifying       Award to
                                     Date                                    Proposal                    Proposal to      Definitization
                                                                                                        Definitization
FA8704-04-C-0003     6/30/2004     2/18/2005      4/6/2005                        233                        47                280
FA8720-04-C-0025      9/1/2004     9/30/2004     2/18/2005                        29                         141               170
FA8721-09-C-0002     12/1/2008     3/24/2009     9/30/2009                        113                        190               303
FA8726-06-C-0001     11/18/2005    1/25/2006     8/31/2006                        66                         220               286
FA8726-09-C-0002     10/24/2008   11/21/2008      4/6/2010                        28                         501               529
FA8721-08-D-0001
     DO-0001          7/9/2008     7/2/2008      9/30/2008           Received before UCA award date          N/A               83
     DO-0002         8/14/2008     7/2/2008      9/30/2008           Received before UCA award date          N/A               47
FA8730-08-C-0002      3/6/2008    11/19/2007      9/4/2008           Received before UCA award date          N/A               182
FA8807-05-C-0004
     P00018          7/30/2007     2/27/2008     8/25/2009                        212                        545               757
FA8706-06-D-0003
     DO-0003         12/8/2006    11/29/2006     2/15/2007           Received before UCA award date          N/A               69
     DO-0003-02       9/7/2007     6/29/2007     1/25/2008           Received before UCA award date          N/A               140
     DO-0010-03      10/31/2008    9/26/2008     1/29/2009           Received before UCA award date          N/A               90
     DO-0017         2/27/2009     1/30/2009     9/29/2009           Received before UCA award date          N/A               214
FA8720-04-D-0001
    DO-0001-02        5/5/2005    10/24/2005     2/23/2006                        172                        122               294
FA8708-06-D-0001
     DO-0004-01      12/30/2005    4/19/2006     6/30/2006                        110                        72                182
     DO-0008
       DO-0008-02    12/15/2006    6/8/2007      9/24/2008                        175                        474               649
       DO-0008-16    3/28/2008     2/15/2008     9/24/2008           Received before UCA award date          N/A               180


                                                                39
Appendix E. Definitization Elapsed Days for ESC UCAs (cont’d)
                     Electronic Systems Center’s Definitization Details for FY 2004–August 14, 2009

    Contract          Effective    Qualifying   Definitization          Days From Award to             Days From Receipt    Days From
    Number              Date        Proposal        Date                Receipt of Qualifying            of Qualifying       Award to
                                      Date                                    Proposal                    Proposal to      Definitization
                                                                                                         Definitization
        DO-0008-17    3/27/2008    10/27/2008      6/5/2009                        214                        221               435
     DO-0010-11        5/9/2008    10/24/2008      2/9/2010                        168                        473               641
     DO-0011-02       4/23/2007     5/21/2007     11/14/2007                       28                         177               205
     DO-0012-03       5/13/2008     11/7/2008     4/23/2010*                       178                        532               710
     DO-0018-03       11/30/2007    3/28/2008     6/13/2008                        119                        77                196
FA8709-04-C-0010
     PZ0005           5/11/2005     5/10/2005     7/11/2005           Received before UCA award date         N/A                61
     PZ0008           11/16/2005    4/28/2006     9/28/2006                        163                        153               316
     P00013           3/31/2006     4/28/2006     9/28/2006                        28                         153               181
FA8709-04-C-0011
     PZ0008           11/16/2005   12/16/2005     9/27/2006                        30                         285               315
     P00011           3/14/2006     4/24/2006     9/27/2006                        41                         156               197
FA8725-04-C-0007
     P00041           7/12/2007     5/10/2007     11/30/2007          Received before UCA award date         N/A                141
FA8730-08-D-0001
    DO-0001           5/22/2008     5/8/2008      9/30/2008           Received before UCA award date          N/A               131
    DO-0002           5/22/2008     5/8/2008      9/30/2008           Received before UCA award date          N/A               131
    DO-0003           5/22/2008     5/8/2008      9/30/2008           Received before UCA award date          N/A               131
    DO-0004           5/22/2008     5/8/2008      9/30/2008           Received before UCA award date          N/A               131
    DO-0005           5/22/2008     5/8/2008      9/30/2008           Received before UCA award date          N/A               131
    DO-0006           5/22/2008     5/8/2008      9/30/2008           Received before UCA award date          N/A               131
    DO-0007           5/22/2008     5/8/2008      9/30/2008           Received before UCA award date          N/A               131
    DO-0008           5/22/2008     5/8/2008      9/30/2008           Received before UCA award date          N/A               131


                                                                 40
Appendix E. Definitization Elapsed Days for ESC UCAs (cont’d)
                         Electronic Systems Center’s Definitization Details for FY 2004–August 14, 2009

Contract Number            Effective        Qualifying   Definitization          Days From Award to             Days From Receipt    Days From
                             Date            Proposal        Date                Receipt of Qualifying            of Qualifying       Award to
                                               Date                                    Proposal                    Proposal to      Definitization
                                                                                                                  Definitization
    DO-0009                5/22/2008         5/8/2008      9/30/2008           Received before UCA award date          N/A               131
    DO-0010                5/22/2008         5/8/2008      7/31/2008           Received before UCA award date          N/A               70
    DO-0011                5/22/2008         5/8/2008      9/30/2008           Received before UCA award date          N/A               131
    DO-0012                5/22/2008         5/8/2008      9/30/2008           Received before UCA award date          N/A               131
FA8721-09-C-0001           10/1/2008         3/4/2009       8/6/2009                        154                        155               309
* UCA undefinitized as of April 23, 2010.




                                                                          41
Department of the Air Force Comments




                  Click to add JPEG file




                                 42
Click to add JPEG file




               43
                           Final Report
                            Reference




                         Refers to
                         Recommendation
                         1.a on page 22.




Click to add JPEG file
                         Refers to
                         Recommendation
                         1.b on page 22.




               44
Click to add JPEG file




               45
Click to add JPEG file




               46
Click to add JPEG file




               47
Click to add JPEG file




               48
